           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Announcement –                                                 Date:    March 12, 2014
           FAA Oversight of Accountable Property
           Federal Aviation Administration
           Project No. 13F3018F000

  From:    Louis C. King                                                                  Reply to
                                                                                          Attn. of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology Audits

    To:    Federal Aviation Administrator

           In 2013, we reported that purchase cardholders and property control officials at the
           Federal Aviation Administration (FAA) did not always follow Agency policy for
           tracking accountable personal property such as computers and digital cameras. 1
           Thirty-two percent of tested computers and servers were not promptly accounted for,
           and 22 percent of these systems had not been recorded in FAA’s Automated
           Inventory Tracking System (AITS). As of November 2013, the AITS record included
           about $1.2 billion of non-capitalized accountable personal property. 2

           OIG will perform an audit of FAA’s oversight of non-capitalized accountable
           personal property. Our audit objectives are to (1) determine whether FAA has
           implemented effective internal controls for managing non-capitalized accountable
           property, and (2) assess the extent of compliance with those controls.

           We plan to begin this audit immediately and to conduct it at the Mike Monroney
           Aeronautical Center in Oklahoma City, the William J. Hughes Technical Center in
           Atlantic City, NJ, other FAA field offices, and FAA Headquarters in Washington DC.
           We will contact your audit liaison to schedule an entrance conference. If you have any
           questions or need additional information, please contact George Banks, Program
           Director, at (410) 962-1729, or Mark Rielly, Project Manager, at (410) 962-0699.
           1
             Actions Needed To Enforce Controls Over Purchase Cards, OIG Report No. FI-2013-116, July 25, 2013. OIG reports are
           available on our Web site at: http://www.oig.dot.gov/.
           2
             Non-capitalized accountable personal property has a value of less than $100,000 and is not recorded in DOT’s
           consolidated financial statements as assets. Capitalized accountable personal property is recorded as assets and reported in
           the financial statements.
                                 #

cc: FAA Audit Liaison, AAE-100
    DOT Audit Liaison, M-1
